         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Evaluation Report
The Federal Energy Regulatory
Commission's Unclassified Cyber
Security Program - 2011




OAS-M-12-01                        November 2011
                                  Department of Energy
                                    Washington, DC 20585
                                       November 15, 2011


MEMORANDUM FOR THE CHAIRMAN, FEDERAL ENERGY REGULATORY
               COMMISSION



FROM:                    Rickey R. Hass
                         Deputy Inspector General
                            for Audits and Inspections
                         Office of Inspector General

SUBJECT:                 INFORMATION: Evaluation Report on "The Federal Energy
                         Regulatory Commission's Unclassified Cyber Security Program - 2011"

INTRODUCTION AND OBJECTIVE

The Federal Energy Regulatory Commission (Commission) is an independent agency within the
Department of Energy responsible for regulating the Nation's oil pipeline, natural gas,
hydroelectric and wholesale electric industries. The Commission relies on a wide range of
information technology (IT) resources in achieving its mission of assisting consumers in
obtaining reliable, efficient, and sustainable energy services. As highlighted by cyber attacks at
various Federal entities over recent years, malicious individuals continue to take advantage of the
changing information security threat landscape and exploit vulnerabilities in IT resources that
have not been remediated. To help protect against cyber security threats such as these, the
Commission estimated that it would expend approximately $3.8 million during Fiscal Year (FY)
2011 to secure its IT assets.

The Federal Information Security Management Act of 2002 (FISMA) established requirements
for Federal agencies related to the management and oversight of information security risks and to
ensure that IT resources were adequately protected. As directed by FISMA, the Office of
Inspector General conducted an independent evaluation of the Commission's unclassified cyber
security program to determine whether it adequately protected data and information systems.
This report presents the results of our evaluation for FY 2011.

RESULTS OF EVALUATION

The Commission had taken actions to improve its cyber security posture and mitigate risks
associated with certain issues identified during our FY 2010 evaluation. While these measures
are noteworthy, our current evaluation disclosed that additional action is needed to further
protect information systems and data. In particular, we continued to identify weaknesses related
to the Commission's timely remediation of software vulnerabilities. Specifically, our testing
found that additional opportunities existed for the Commission to ensure that all servers and
workstations were patched in a timely manner.

The problems we identified were due, in part, to less than fully effective implementation of cyber
security policies and procedures. In particular, Commission officials informed us that they did
                                                 2


not follow existing Vulnerability Management Program (VMP) policies due to budget and
resource constraints. Although the Commission continued to make progress in improving its
cyber security posture, additional actions are needed to further reduce the risk to the agency's
information systems and data.

The Commission had taken actions to improve its cyber security posture and mitigate risks
associated with certain issues identified during our FY 2010 evaluation. For example the
Commission had updated its incident response process to help ensure that all incidents were
reported to the Department of Energy Cyber Incident Response Capability within established
timeframes. In addition, it utilized its VMP to help identify vulnerabilities in unclassified
network systems, including servers, workstations, applications, and network and security
devices. Finally, officials continued to perform regularly scheduled scans of networks,
workstations and web applications. These actions are positive; however, additional effort is
needed. As such, we recommended that the Commission ensure that existing vulnerability
management procedures are fully implemented.

Due to security considerations, information on specific vulnerabilities has been omitted from this
report. However, management was provided with detailed information regarding identified
vulnerabilities, and in certain instances, had initiated corrective action.

MANAGEMENT REACTION

Management concurred with the report's recommendation and disclosed that it had initiated
actions to address the issues identified in our report. Management's comments are included in
their entirety in Appendix 3.

Attachment

cc:   Deputy Secretary
      Associate Deputy Secretary
      Executive Director, Federal Energy Regulatory Commission
      Chief of Staff
EVALUATION REPORT ON THE FEDERAL ENERGY REGULATORY
COMMISSION'S UNCLASSIFIED CYBER SECURITY PROGRAM - 2011

TABLE OF
CONTENTS


The Federal Energy Regulatory Commission's Unclassified Cyber Security Program

Details of Finding ............................................................................................................................1

Recommendation and Comments ....................................................................................................3


Appendices

1. Objective, Scope and Methodology ...........................................................................................4

2. Related Reports ..........................................................................................................................6

3. Management Comments ............................................................................................................7
The Federal Energy Regulatory Commission's Unclassified Cyber
Security Program - 2011

Program Improvements We identified a number of positive aspects related to the
and Patch Management Federal Energy Regulatory Commission's (Commission)
                     unclassified cyber security program. For instance, we noted that
                     corrective actions had been taken to address certain issues
                     identified during the Fiscal Year (FY) 2010 evaluation. We found
                     that the Commission:

                             •   Updated its incident response process to help ensure that all
                                 incidents were reported to the Department of Energy Cyber
                                 Incident Response Capability within established
                                 timeframes;

                             •   Utilized its Vulnerability Management Program (VMP) to
                                 help identify vulnerabilities for its unclassified network
                                 systems, including servers, workstations, applications, and
                                 network and security devices; and,

                             •   Continued to perform regularly scheduled scans of
                                 networks, workstations and web applications.

                                                  Patch Management

                          We determined that the Commission significantly reduced the
                          number of "high risk" vulnerabilities in its information systems
                          since our prior year review. In preliminary comments on our draft
                          report, management stated that it had successfully applied over 500
                          patches to its almost 1,500 servers and workstations during FY
                          2011; activity covering over 95 percent of total available patches.
                          Additionally, officials stated that certain patches could not be
                          applied because they could have had operational impacts.

                          While these are positive results, our testing found that additional
                          opportunities existed for the Commission to ensure that all servers
                          and workstations were patched in a timely manner. Specifically,
                          we noted that 32 of 70 vulnerabilities we identified were rated
                          "high risk" by the vendor and/or the National Vulnerability
                          Database sponsored by the Department of Homeland Security's
                          National Cyber Security Division. While 9 of the issues identified
                          impacted a significant number of the 45 servers and/or 236
                          workstations tested, the remaining 23 were confined to small
                          subset of those devices.

                          The vulnerabilities we observed were primarily associated with
                          third-party productivity and internet applications. Affected




Page 1                                                                    Details of Finding
                        systems included servers and workstations utilized by financial
                        application users and system administrators with privileged levels
                        of access to financial systems and general support systems. All of
                        the "high risk" vulnerabilities identified were more than 30 days
                        old, including 18 that were missing patches more than 1 year old.
                        Furthermore, we identified several instances where the
                        Commission was using software that was no longer supported by
                        the vendor. As noted by the National Institute of Standards and
                        Technology, proactively identifying and remediating system
                        vulnerabilities can reduce or eliminate the potential for exploitation
                        and involves considerably less time than responding to an exploit.

Cyber Security Policy   The problems we identified were due, in part, to less than fully
Implementation          effective implementation of cyber security policies and procedures.
                        In particular, Commission officials informed us that they did not
                        follow their existing VMP policies due to budget and resource
                        constraints. As such, the identified "high risk" vulnerabilities on
                        network server and workstation systems had not been remediated
                        in a timely manner. While there are many nuances that must be
                        considered when managing the use of existing resources, it is
                        important to ensure that "high risk" vulnerabilities such as those
                        identified during our review receive adequate attention and are
                        addressed in a timely manner.

                        In addition, although the Commission had identified and tracked
                        the vulnerabilities found during our testing in its Vulnerability
                        Tracking Tool, officials had not followed the remediation
                        timeframes required by its VMP procedures. For example, the
                        VMP required that "high risk" vulnerabilities be remediated within
                        30 days. However, our testing found that each of the identified
                        "high risk" weaknesses had significantly exceeded the prescribed
                        timeframe for remediation.

Risk to Commission      Although the Commission continued to make progress in
Systems and             improving its cyber security posture, additional actions are
Information             needed to further reduce the risk to the agency's information
                        systems and data. In particular, network servers and workstations
                        running applications that were missing security updates for known
                        vulnerabilities or were no longer supported by the vendor were at a
                        heightened risk for malicious attacks that could result in the
                        compromise of vulnerable systems. For example, an attacker
                        could exploit the vulnerabilities to gain unauthorized access to
                        systems, applications and sensitive data, including financial
                        systems and data, which could disrupt normal business operations
                        or have negative impacts on system and data reliability.




Page 2                                                                   Details of Finding
                 Additionally, workstations were at risk for computer viruses and
                 other malicious vulnerability exploits that could provide attackers
                 with complete control of those systems, and other devices residing
                 on the internal network.

RECOMMENDATION   To correct the weaknesses identified in this report and improve the
                 effectiveness of the Commission's unclassified cyber security
                 program, we recommend that the Executive Director, Federal
                 Energy Regulatory Commission, take the following action:

                      • Fully implement existing vulnerability and patch
                        management procedures to ensure that security
                        vulnerabilities are remediated and verified in a timely
                        manner.

MANAGEMENT       Management concurred with the report's recommendation and
REACTION         commented that it had initiated actions to address weaknesses
                 identified during our evaluation. In particular, management
                 commented that it was aware of the vulnerabilities identified
                 during our review and would resolve them through existing
                 remediation plans by the end of 2011. In addition, management
                 stated that it would continue to actively monitor all vulnerabilities
                 in addition to any new threats identified through the use of security
                 tools and alerts communicated from external sources.

AUDITOR          Management's comments were responsive to our
COMMENTS         recommendation. Management's comments are included in their
                 entirety in Appendix 3.




Page 3                                          Recommendation and Comments
Appendix 1

OBJECTIVE     To determine whether the Federal Energy Regulatory
              Commission's (Commission) unclassified cyber security program
              adequately protected data and information systems.

SCOPE         The evaluation was performed between July 2011 and November
              2011, at the Commission's Headquarters in Washington, DC.
              KPMG LLP (KPMG), assisted the Office of Inspector General
              (OIG) by performing an assessment of the Commission's
              unclassified cyber security program. Our evaluation also included
              a review of general and application controls in areas such as
              security management, access controls, configuration management,
              segregation of duties, and contingency planning.

METHODOLOGY   To accomplish our objective, we:

                   •   Reviewed Federal laws and regulations related to controls
                       over information technology security such as the Federal
                       Information Security Management Act of 2002, Office of
                       Management and Budget Memoranda, and National
                       Institute of Standards and Technology standards and
                       guidance;

                   •   Evaluated the Commission in conjunction with its annual
                       audit of the Financial Statements, utilizing work
                       performed by KPMG. OIG and KPMG work included
                       analysis and testing of general and application controls
                       for the network and systems and review of the network
                       configuration;

                   •   Reviewed the overall unclassified cyber security program
                       management, including the Commission's policies,
                       procedures and practices;

                   •   Held discussions with Commission officials and reviewed
                       relevant documentation; and,

                   •   Reviewed prior reports issued by the OIG and the U.S.
                       Government Accountability Office.

              We conducted this evaluation in accordance with generally
              accepted Government auditing standards. Those standards require
              that we plan and perform the effort to obtain sufficient, appropriate
              evidence to provide a reasonable basis for our findings and
              conclusions based on our audit objectives. We believe that the
              evidence obtained provides a reasonable basis for our finding and
              conclusions based on our audit objective. Accordingly, we



Page 4                                     Objective, Scope and Methodology
Appendix 1 (continued)

                    assessed significant internal controls and the Commission's
                    implementation of the Government Performance and Results Act of
                    1993 and determined that it had established performance measures
                    for its information and unclassified cyber security program.
                    Because our evaluation was limited, it would not have necessarily
                    disclosed all internal control deficiencies that may have existed at
                    the time of our evaluation. We relied on computer-processed data
                    to satisfy our objective. In particular, computer assisted audit tools
                    were used to perform probes of various networks and drives. We
                    validated the results of the scans by confirming the weaknesses
                    disclosed with responsible on-site personnel and performed other
                    procedures to satisfy ourselves as to the reliability and competence
                    of the data produced by the tests.

                    Management waived an exit conference.




Page 5                                           Objective, Scope and Methodology
Appendix 2

                                     RELATED REPORTS

•   The Federal Energy Regulatory Commission's Unclassified Cyber Security Program – 2010,
    (OAS-M-11-01, October 2010). The Federal Energy Regulatory Commission (Commission)
    had taken actions to significantly improve its cyber security posture and mitigate risks
    associated with each of the four weaknesses we identified during our Fiscal Year (FY) 2009
    evaluation. However, additional action was needed to improve protection of information
    systems and data. Specifically, we found that security patches needed to resolve known
    vulnerabilities discovered during regularly scheduled scans were not applied to all
    workstations in a timely manner. In addition, even though officials had established an
    automated mechanism for tracking all known vulnerabilities, only 10 percent of the identified
    "high risk" vulnerabilities were actually being tracked. The problems we identified with the
    Commission's unclassified cyber security program were due, in part, to the less than fully
    effective implementation of policies and procedures. As such, the risk to the agency's
    information systems and data remained higher than necessary. Management concurred with
    the report's recommendations and commented that it had initiated actions to address
    weaknesses identified during our evaluation.

•   The Federal Energy Regulatory Commission's Unclassified Cyber Security Program – 2009,
    (DOE/IG-0830, October 2009). The Commission had taken steps to improve its unclassified
    cyber security program; however, additional actions were necessary to help ensure the
    networks, systems and data were adequately protected against increasingly sophisticated
    cyber security attacks. These problems occurred, at least in part, because the Commission
    had not developed policies and procedures to address all Federal requirements pertaining to
    information security. In addition, officials had not always effectively implemented existing
    policy and/or corrected previously observed weaknesses. The Commission's Plan of Action
    and Milestones process for addressing cyber security weaknesses did not include all
    information necessary to ensure effectiveness. Absent improvement, the risk to the agency's
    information systems and data remains higher than necessary. Management concurred with
    the report's recommendations and commented that it had initiated or already completed
    actions to address weaknesses identified during our evaluation.

•   The Federal Energy Regulatory Commission's Unclassified Cyber Security Program – 2008
    (DOE/IG-0802, September 2008). While the Commission had taken action to improve its
    unclassified cyber security program, our evaluation disclosed that additional actions were
    needed to reduce the risk of compromise to business information systems and data to an
    acceptable level. These problems existed because the Commission had not fully developed
    or implemented all current Federal cyber security requirements. In response to our inquiries,
    management stated that due to the recent departure of a large number of information
    technology staff, insufficient attention had been given to ensuring that existing policies and
    procedures were implemented. We made several recommendations designed to assist in
    achieving this goal. Management concurred with the report's recommendations and stated
    that measures were being taken to ensure that issues identified in our report were being
    addressed.




Page 6                                                                          Related Reports
Appendix 3




Page 7       Management Comments
                                                                   IG Report No. OAS-M-12-01

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:
                             Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                    http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form.
